 Pension Benefit Guaranty Corporation
           Office of Inspector General

                     Audit Report


Audit of the Pension Benefit Guaranty Corporation's
 Fiscal Years 1999 and 1998 Financial Statements


               Report of Independent Accountants

                   Report on Internal Control

    Report on Compliance With Applicable Laws and Regulations



              Pension Benefit Guaranty Corporation's
         Fiscal Years 1999 and 1998 Financial Statements
               and Notes to the Financial Statements




                     March 31, 2000
                                                           2000-7/23138-2
                Audit of the Pension Benefit Guaranty Corporation’s
                 Fiscal Year 1999 and 1998 Financial Statements

                            Audit Report 2000-7/23138-2




                                     Contents


Section I:     Report of Independent Accountants


Section II:    Report on Internal Control


Section III:   Report on Compliance with Applicable
               Laws and Regulations


Section IV:    Pension Benefit Guaranty Corporation’s Fiscal
               Years 1998 and 1997 Financial Statements and
               Notes to the Financial Statements
                            Abbreviations



AICPA      American Institute of Certified Public Accountants
CSRS       Civil Service Retirement System
ERISA      Employee Retirement Income Security Act of 1974
FAM        Financial Audit Manual
FARS       Financial Accounting and Reporting System
FERS       Federal Employees Retirement System
FMFIA      Federal Managers’ Financial Integrity Act of 1982
FRS        Financial Reporting System
GAO        U.S. General Accounting Office
ID         Identification
IPS        Image Processing System
IRMD       Information Resource Management Department
OIG        Office of Inspector General
OMB        Office of Management and Budget
OPM        Office of Personnel Management
PBGC       Pension Benefit Guaranty Corporation
PLUS       Pension and Lump Sum System
PRISM      Participant Records Information Systems Management
PVFB       Present Value of Future Benefits
SDLC       Systems Development Life Cycle
SSB        State Street Bank
TAS        Trust Accounting System
The Fund   Single-Employer Fund
94GAM      1994 Group Annuity Mortality Table
            Section I

Report of Independent Accountants
        Section II

Report on Internal Control
             Section III

Report on Compliance with Applicable
       Laws and Regulations
              Section IV

Pension Benefit Guaranty Corporation's
 Fiscal Years 1999 and 1998 Financial
      Statements and Notes to the
          Financial Statements
